U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 3, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Devona Hollingsworth v. Department of Veterans Affairs,
S.Ct. No. 19-5 86

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 1,
2019, and placed on the docket on November 6, 2019. The government's response is due on
December 6, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 6, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0586
HOLL[NGS WORTH, DEVONA
DEPARTMENT OF VETERANS AFFAIRS

JOSEPH D. MAGRI
MERKLE & MAGRI, PA
5601 MARINER STREET
SUITE 400
TAMPA, FL 33609
813-281-9000
JMAGRI@MERKLEMAGRI.COM

